FY 2012 PERFORMANCE REPORT
                  Table of Contents


Executive Summary…………………………………………………..              1

Performance Results……………………………………….…………             2

Performance Discussion and Analysis ……………………….………   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10
                 MISSION STATEMENT



By conducting independent and objective audits, evaluations, and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste, and abuse. We
  provide timely, useful, and reliable information and advice to
      Administration officials, the Congress, and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
   prevent and deter fraud, waste, and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                        EXECUTIVE SUMMARY




This 2012 Performance Report focuses on the Office of the Inspector General’s (OIG) results for
the second year of our Fiscal Year (FY) 2011 – 2015 Strategic Plan. We evaluate our progress
using 15 performance measures determined by a framework of three general goals: Impact,
Value, and People. For FY 2012, we successfully met the targets for all 15 of the performance
measures.

The first of our three goals focuses on the impact we have on SSA’s programs and operations.
Four performance measures are used to calculate the integrity, efficiency, and effectiveness of
SSA programs and operations. One strategy used to accomplish this goal in FY 2012, was to
prioritize investigations, audits, and counsel actions to effect more efficient and effective SSA
programs and operations.

The second goal reflects the value we provide to SSA, the Congress, and the American public by
delivering timely and reliable products and services while sustaining a positive return for each tax
dollar invested in OIG activities. We calculate this goal using eight performance measures. For
FY 2012, we generated a positive return of $56 for every tax dollar invested. Utilizing
information technology investments to enhance OIG work products and service delivery, and
implementing best practices to ensure quality and timeliness of OIG products and services, are
two strategies we used to accomplish this goal.

The third goal includes strategies to enhance the work experience of our people, who are the
foundation of the OIG organization. We use three performance measures to evaluate our success
in maintaining a skilled, motivated, diverse workforce in a positive and rewarding work
environment. During FY 2012, 100 percent of our employees received 40 hours or more of
appropriate developmental and skill enhancement training. Providing OIG components with the
training and tools necessary to ensure professional development of our employees helped achieve
this goal.

SSA OIG employees remain committed to achieving our goals in support of our overall mission
of inspiring public confidence by detecting and preventing fraud, waste, and abuse in SSA’s
programs and operations.




November 2012                   SSA OIG FY 2012 Performance Report                  Page 1
                                   PERFORMANCE RESULTS


                                                                                                 GOALS
GOAL                       DESCRIPTION                                TARGET RESULT           MET    NOT
                                                                                                     MET
                                                    IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                                   88%         91%            X
       88 percent for all audit recommendations.
       Achieve a 5-year average implementation rate of
       85 percent for accepted recommendations aimed at
 1.2                                                                   85%         85%            X
       improving the integrity, efficiency, and effectiveness of
       SSA.
       Ensure that at least 80 percent of all cases opened during
 1.3   the fiscal year directly relate to improper payments            80%         93%            X
       within SSA’s Title II and Title XVI Programs.
       Achieve a successful conclusion on at least 75 percent of
 1.4   all Title II and Title XVI cases closed during the fiscal       75%         88%            X
       year.
                                                     VALUE
       Generate a positive return of $8 for every tax dollar
 2.1                                                                  $8 to $1   $56 to $1        X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                                   90%         96%            X
       received within 45 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                                   75%         92%            X
       cases within 180 days.
       Respond to 95 percent of constituent-based congressional
 2.4                                                                   95%         96%            X
       inquiries within 21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                                   90%         97%            X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive external user assessment rating of
 2.6                                                                   85%         91%            X
       85 percent for product-service quality.
       Issue 85 percent of final audit reports within 1 year of the
 2.7                                                                   85%         89%            X
       entrance conference with SSA.
       Complete 85 percent of requests for legal advice and
 2.8                                                                   85%         99%            X
       review within 30 days.
                                                    PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.           5%         2%             X
       Conduct an annual employee job-satisfaction survey and
 3.2   implement corrective action plans to identify areas where       75%         78%            X
       improvements are needed.
       Ensure that 90 percent of OIG staff receives 40 or more
 3.3   hours of appropriate developmental and skill                    90%        100%            X
       enhancement training annually.




         November 2012                    SSA OIG FY 2012 Performance Report             Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS

This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the three general areas. We
state each goal and its associated measures, and describe the method of calculation. We
also discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 – IMPACT
                Enhance the integrity, efficiency, and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits, and counsel actions to effect more efficient and
       effective SSA programs and operations.


              Maintain an annual acceptance rate of at least             FY 2012 Result
 Goal 1.1
              88 percent for all audit recommendations.                    91 Percent

We calculate this measure by dividing the number of legislative, policy, and regulatory
recommendations accepted by SSA and/or the Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2012, our annual acceptance rate was 91 percent, exceeding our goal of 88 percent.
Of the 255 recommendations we submitted during this period that have a management
Decision, SSA agreed with 231.




November 2012                 SSA OIG FY 2012 Performance Report              Page 3
             Achieve a 5-year average implementation rate of
             85 percent for accepted recommendations aimed               FY 2012 Result
 Goal 1.2
             at improving the integrity, efficiency, and                   85 Percent
             effectiveness of SSA.

We calculate this measure by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2012 we are reporting the 5-year period
covering FYs 2007 through 2011. Our average implementation rate for accepted audit
recommendations was 85 percent. During this period, SSA implemented 1,033 of 1,221
accepted recommendations.


              Ensure that at least 80 percent of all cases
              opened during the fiscal year directly relate to         FY 2012 Result
 Goal 1.3     improper payments within SSA’s Title II and                93 Percent
              Title XVI Programs.

We calculate this measure by dividing the total number of cases opened during the FY,
which are directly related to the Title II or Title XVI programs, by the total number of cases
opened during the FY. This performance measure relates to SSA’s Strategic Plan for FYs
2008-2013, Goal 4, Objective 1: Curb Improper Payments.

For FY 2012, of the 8,070 cases we opened, 7,492 of the cases related directly to improper
payments within SSA's Title II and Title XVI Programs. This 93-percent performance rate
exceeds our 80-percent target.


              Achieve a successful conclusion on at least
                                                                       FY 2012 Result
 Goal 1.4     75 percent of all Title II and Title XVI cases
                                                                         88 Percent
              closed during the FY.

We calculate this measure by dividing the number of closed Title II and Title XVI cases
successfully concluded during the FY by the total number of Title II and Title XVI cases
closed during the FY. A successful criminal conclusion occurs when a subject either pleads
guilty or is convicted, or accepts pre-trial diversion or probation before judgment. A
successful civil conclusion occurs when a subject either pleads guilty or is convicted, or
when the Office of Counsel to the Inspector General (OCIG) accepts a CMP referral
resulting from our Office of Investigations’ (OI) casework. A successful administrative
conclusion occurs when SSA denies, terminates, suspends, recovers, or reduces a benefit; or
removes a representative payee, based on an OI investigation.

For FY 2012, of the 7,291 Title II and Title XVI cases we closed, 6,408 had a successful
conclusion. This 88-percent performance rate exceeds our 75-percent target.


November 2012                 SSA OIG FY 2012 Performance Report             Page 4
   Goal 2 – VALUE
 Provide quality products and services of value in a timely manner to Congress, SSA,
 and other key decision-makers while sustaining a positive return for each tax dollar
                             invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

              Generate a positive return of $8 for every tax          FY 2012 Result
 Goal 2.1
              dollar invested in OIG activities.                        $56 to $1

We calculate this measure by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2012, we generated a return of $56 for every dollar invested in us by the taxpayer.
This rate of return was bolstered by 3 audit reports entitled, Disabled Individuals with
Mental Impairments in Need of a Representative Payee (A-07-11-11110); Old-Age,
Survivors and Disability Insurance Benefits Affected by State or Local Government
Pensions (A-13-10-10143); and Old-Age, Survivors and Disability Insurance Benefits
Withheld Pending Supplemental Security Income Windfall Offset (A-09-11-11130). In these
reports, we identified over $993 million in Questioned Costs and over $3.8 billion in Funds
put to Better Use.




              Evaluate and respond to 90 percent of all               FY 2012 Result
 Goal 2.2
              allegations received within 45 days.                      96 Percent

We calculate this measure by dividing the total number of allegations closed or referred
within 45 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2012, we evaluated and responded to 96 percent of all allegations received within
45 days. Of the 134,249 allegations closed or referred during the FY, we closed or referred
128,598 allegations within 45 days.

November 2012                 SSA OIG FY 2012 Performance Report           Page 5
              Complete investigative fieldwork on 75 percent            FY 2012 Result
 Goal 2.3
              of all cases within 180 days.                               92 Percent

We calculate this measure by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA, or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2012, we surpassed our 75-percent goal with a 92-percent rating. We closed or
referred a total of 7,833 investigations during the FY. Of these, we closed or referred
7,186 cases for action within 180 days.




              Respond to 95 percent of constituent-based                FY 2012 Result
 Goal 2.4
              congressional requests within 21 days.                      96 Percent

We calculate this measure by dividing the total number of constituent-based congressional
inquiries (inquiries made by Members of Congress on behalf of one or more named
constituents) responded to within 21 days during the FY divided by the total number of such
inquiries received during the FY. Processing days are the calendar days elapsed from the
OIG’s Office of External Relations’ receipt of such an inquiry to the date of the first written
response to the Member of Congress.

For FY 2012, we responded to 55 (96 percent) of 57 congressional inquiries within 21 days.




              Take action on 90 percent of Civil Monetary
                                                                        FY 2012 Result
 Goal 2.5     Penalty (CMP) subjects within 30 days of
                                                                          97 Percent
              receipt.

We calculate this measure by dividing the total number of CMP subjects against whom
initial action was taken within 30 days of receipt by OCIG during the FY, by the total
number of CMP subjects where action was taken during the FY. Initial actions are defined
as sending a letter to the subject either stating an intention to pursue a CMP; or indicating
that a CMP will not be proposed at this time, and directing the subject to SSA to make
arrangements for repayment or other actions.

For FY 2012, we took action within 30 days on 2,104 (97 percent) of 2,163 CMP subjects.


November 2012                SSA OIG FY 2012 Performance Report              Page 6
             Achieve a positive external user assessment               FY 2012 Result
 Goal 2.6
             rating of 85 percent for product-service quality.           91 Percent

The OIG’s Office of Quality Assurance and Professional Responsibility, during each
Quality Assurance Review, ask external customers to rate their level of satisfaction with the
quality of OIG products and services. Recipients and users of OIG products and services
include SSA and other Government entities, such as the Congress, Offices of U.S.
Attorneys, and external law enforcement agencies. This rating, measured using a five-tier
scale, is averaged for each Quality Assurance Review conducted during the Fiscal Year, and
then translated into a percentage, with 85 percent indicating satisfaction.

For FY 2012, we achieved a 91-percent rating, exceeding our goal of 85 percent.




             Issue 85 percent of final audit reports within            FY 2012 Result
 Goal 2.7
             1 year of the entrance conference with SSA.                 89 Percent

We calculate this measure by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2012, our office achieved an 89-percent rating, exceeding our goal of 85 percent.
We issued 98 of 110 reports during the FY within 1 year of their respective entrance
conferences.




             Complete 85 percent of requests for legal                 FY 2012 Result
 Goal 2.8
             advice and review within 30 days.                           99 Percent

We calculate this measure by dividing the total number of legal opinions, subpoenas, and
audit reviews completed by OCIG within 30 days of receipt during the FY by the total
number of requests for legal opinions, subpoenas, and audit reviews completed during the
FY.

During FY 2012, we completed 1,229 (99 percent) of the 1,237 requests for legal opinions,
subpoenas, and audit reviews within 30 days.



November 2012                SSA OIG FY 2012 Performance Report            Page 7
    Goal 3 – PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.



             Achieve an annual attrition rate of 5 percent or        FY 2012 Result
 Goal 3.1
             less.                                                     2 Percent

We calculate this measure by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the employees on board at the beginning of the
FY.

For FY 2012, OIG began the FY with 570 employees. During the FY, 9 employees
separated from OIG, which is equivalent to a 2-percent attrition rate.




             Conduct an annual employee job-satisfaction
                                                                     FY 2012 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                       78 Percent
             identify areas where improvement is needed.

OIG’s Organizational Health Committee implemented an annual employee job-satisfaction
survey beginning in FY 2006. The survey consists of 16 questions, 12 of which are used to
determine the percentage. Our goal is to have an average score of 75 percent for the
questions asked pertaining to employee job-satisfaction. Exceeding this goal demonstrates a
high level of employee satisfaction.

For FY 2012, we achieved a 78-percent rating, exceeding our goal of 75 percent.



November 2012                 SSA OIG FY 2012 Performance Report         Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2012 Result
Goal 3.3     or more hours of appropriate developmental
                                                                       100 Percent
             and skill-enhancement training annually.

We calculate this measure by dividing the number of current OIG staff on board at the
beginning of the FY receiving at least 40 hours of training during the FY by the number of
current OIG staff on board at the beginning of the FY.

For FY 2012, 100 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates our
commitment to having a capable and professional workforce. The continual development of
our employees underlies our successful performance as an organization.




November 2012               SSA OIG FY 2012 Performance Report            Page 9
                           HISTORICAL COMPARISON


                                                                                  FY 2010         FY 2011
GOAL                                DESCRIPTION
                                                                                 RESULTS         RESULTS
            Maintain an annual acceptance rate of at least 88 percent for
    1.1 1                                                                          95%             85%
            all recommendations.
            Achieve a 5-year average implementation rate of
    1.2 2   85 percent for accepted recommendations aimed at improving             86%             89%
            the integrity, efficiency, and effectiveness of SSA.
            Ensure that at least 80 percent of all cases opened during the
    1.3 3   last fiscal year directly relate to improper payments within           80%             93%
            SSA’s Title II and Title XVI Programs.
            Achieve a successful conclusion on at least 75 percent
    1.4 4                                                                          N/A             87%
            of all Title II and Title XVI cases closed during the fiscal year.
            Generate a positive return for every dollar invested in OIG
    2.1 5   activities that places us in the top 10 percent of all OIGs for      $48 to $1         10%
            return on investment.
            Evaluate and respond to 90 percent of all allegations received
    2.2                                                                            97%             96%
            within 45 days.
            Complete investigative fieldwork on 75 percent of all cases
    2.3                                                                            86%             89%
            within 180 days.
            Respond to 95 percent of constituent-based congressional
    2.4 6                                                                          96%             96%
            requests within 21 days.
            Take action on 90 percent of Civil Monetary Penalty (CMP)
    2.5                                                                            97%             91%
            subjects within 30 days of receipt.
            Achieve a positive external user assessment rating of 85
    2.6 7                                                                          95%             93%
            percent for product-service quality.
            Issue 85 percent of final audit reports within 1 year of the
    2.7 8                                                                          94%             90%
            entrance conference with SSA.
            Complete 85 percent of requests for legal advice and review
    2.8                                                                            99%             99%
            within 30 days.
    3.1     Achieve an annual attrition rate of 5 percent or less.                 4%                  3%
            Conduct an annual employee job-satisfaction survey and
    3.2     implement corrective action plans to identify areas where              75%             77%
            improvements are needed.
            Ensure that 90 percent of OIG staff receives 40 or more hours
    3.3     of appropriate developmental and skill-enhancement training            98%             99%
            annually.


1
  Goal 1.1 – FY 2010 85% changed to 88%
2
  Goal 1.2 - FY 2010 deleted “Through FY 2010” from beginning of sentence
3
  Goal 1.3 – FY 2011 changed from “Achieve a positive action on at least 75 percent of all cases closed
during the FY.
4
  Goal 1.4 – FY 2011 added
5
  Goal 2.1 – FY 2011 changed from “Generate a positive return of $6 for every tax dollar invested in OIG
activities.
6
  Goal 2.4 – FY 2011 90% changed to 95% and “constituent-based” added.
7
  Goal 2.6 – FY 2010 deleted “Internal” and changed to just external user.
8
  Goal 2.7 – FY 2011 78% changed to 85%

November 2012                       SSA OIG FY 2012 Performance Report                       Page 10
